APPENDIX

1

APPENDIX
TABLE OF CONTENTS
Appendix A Order Denying Motion for Leave to
Appeal in the State of New York Court
of Appeals
(September 12, 2019)
App. 1
Appendix B Order in the Supreme Court of the
State of New York Appellate Division:
First Department
(May 16, 2013)
App. 3
Appendix C Decision and Order in the Supreme
Court of the State of New York,
County of New York
(April 19, 2012)
App. 7

App. 1

APPENDIX A
State of New York
Court of Appeals
Mo. No. 2019-569
[Filed September 12, 2019]
Warshaw Bur stein Cohen
Schlesinger & Kuh, LLP,
Respondent,
v.
Eric A. Longmire,
Appellant.

)
)
)
)
)
)
)

Present, Hon. Janet Difiore, Chief Judge, presiding.
Decided and Entered on the
twelfth day of September, 2019
Appellant having moved for leave to appeal to the
Court of Appeals in the above cause;
Upon the papers filed and due deliberation, it is
ORDERED, that the motion is denied.
Judge Rivera took no part.

App. 2
/s/ John P. Asiello
John P. Asiello
Clerk of the Court

App. 3

APPENDIX B
SUPREME COURT OF THE STATE OF NEW YORK
APPELLATE DIVISION: FIRST DEPARTMENT
New York County Clerk’s
Index No. 116683/09
[Filed May 16, 2013]
Warshaw Burstein Cohen
Schlesinger & Kuh, LLP,
Plaintiffs-Respondent,
-againstEric A. Longmire,
Defendant-Appellant.

)
)
)
)
)
)
)

v"' < *

ORDER
Tom, J.P., Andrias, Renwick, DeGrasse, JJ.
Schwartz & Ponterio, PLLC, New York (Matthew F.
Schwartz of counsel), for appellant.
Rivkin Radler LLP, Uniondale (Evan H. Krinick of
counsel), for respondent.
Order, Supreme Court, New York County (Joan M.
Kenney, J.), entered April 19, 2012, which granted
plaintiff Warshaw Burstein Cohen Schlesinger & Kuh,
LLP’s (Warshaw) motion to dismiss defendant’s

App. 4
counterclaim for legal malpractice pursuant to CPLR
3211(a)(1) and (7), unanimously affirmed, with costs.
In this action seeking attorney’s fees, defendant
Eric A. Longmire filed a counterclaim for legal
malpractice, alleging that plaintiff negligently failed to
pursue a claim of race-based termination, in opposition
to a summary judgment motion seeking dismissal of
Longmire’s federal employment discrimination lawsuit
against his former employer.
The motion court properly dismissed the legal
malpractice claim, as defendant failed to “meet the
‘case within a case’ requirement, demonstrating that
‘but for’ the attorney’s conduct the [plaintiff] client
would have prevailed in the underlying matter or
would not have sustained any ascertainable damages”
{Weil, Gotshal & Manges, LLP v Fashion Boutique of
Short Hills, Inc., 10 AD3d 267, 272 [1st Dept 2004]; see
also Rudolf v Shayne, Dachs, Stanisci, Corker & Sauer,
8 NY3d 438, 442 [2007]). Longmire failed to show that
he would have established a prima facie case of racebased discrimination (Forrest v Jewish Guild for the
Blind, 3 NY3d 295, 305 [2004]; see also McDonnell
Douglas Corp. v Green, 411 US 792, 802-804 [1973]).
First, Longmire failed to show that he was
terminated, as he himself testified in the underlying
suit that he voluntarily left his former employment. In
addition, based on his own allegations in the complaint
and his affidavit, if he was terminated at all, it was due
to his refusal to testify on his employer’s behalf in his
employer’s matrimonial proceedings, and it was not
due to Longmire’s race. Thus, Longmire would not have

App. 5
prevailed on such a claim had Warshaw pursued it in
opposing summary judgment.
Warshaw’s decision not to move for reconsideration
of the decision dismissing the underlying federal
lawsuit was a strategic choice, and does not amount to
legal malpractice because “[a]n attorney’s ‘selection of
one among several reasonable courses of action does
not constitute malpractice’” (.Rodriguez v Lipsig,
Shapey, Manus & Moverman, P.C., 81 AD3d 551, 552
[1st Dept 2011], quoting Rosner v Paley, 65 NY2d 736,
738 [1985]).
The motion court correctly rejected Longmire’s
submission of an expert affidavit on the issue of
whether Warshaw acted negligently (see Russo v Feder,
Kaszovitz, Isaacson, Weber, Skala & Bass, 301 AD2d
63, 69 [1st Dept 2002]).
The court properly considered the documents
submitted pursuant to CPLR 3211(a)(1) in concluding
that they establish a defense to the malpractice
counterclaim as a matter of law, as they show that
Longmire would not have prevailed on any claim of
race-based termination in the underlying federal suit
(Leon v Martinez, 84 NY2d 83, 88 [1994]; IMO Indus,
v Anderson Kill & Olick, 267 AD2d 10, 11 [1st Dept
1999]). Nor did the documents exceed the “scope” of
documents that a court may review in ruling on a
motion to dismiss, as “prior statements or averments of
parties or their agents in the course of litigation that
refute an essential element of a plaintiffs present
claim may constitute documentary evidence within the
meaning of CPLR 3211(a)(1)” (Morgenthow & Latham
u Bank ofN. Y. Co., 305 AD2d 74, 80 [1st Dept 2003), Iv

App. 6
denied 100 NY2d 512 [2003]; see also Biondi u Beekman
Hill House Apt. Corp., 257 AD2d 76 [1999], affd on
other grounds 94 NY2d 659 [1999]).
Finally, although Longmire contends that the
motion should have been denied pursuant to CPLR
3211(d) because, among other things, depositions had
not yet been taken of Warshaw attorneys who handled
the underlying suit, Longmire does not specify what
facts warrant further discovery or how they are
relevant to his opposition to the motion to dismiss his
counterclaim.
THIS CONSTITUTES THE DECISION AND
ORDER OF THE SUPREME COURT, APPELLATE
DIVISION, FIRST DEPARTMENT.
ENTERED: MAY 16, 2013
Is/

CLERK

j

App. .7

APPENDIX C
SUPREME COURT OF THE STATE OF NEW YORK
NEW YORK COUNTY: PART 8
Index No.: 116683/09
[Filed April 19, 2012]
WARSHAW BURSTEIN COHEN )
SCHLESINGER & KOH, LLP,
)
Plaintiff,
)
- against ERIC A. LONGMIRE
Defendant.

)
)
)
)
)

DECISION/ORDER
KENNEY, JOAN M., J.:
In this action seeking payment of legal fees in the
amount of $268,000.00, defendant Eric A. Longmire
(Longmire) has counterclaimed for legal malpractice
and breach of contract, plaintiff, Warshaw Burstein
Cohen Schlesinger &: Kuh,. LLP (Warshaw) now
moves, pursuant to CPLR 3211(a)(1) and (7), to dismiss
defendant’s legal malpractice claim.
FACTUAL BACKGROUND
Warshaw was retained by Longmire to represent
him in an action (the underlying action) against his

App. 8
former employer, Wyser-Pratte Management Co., Inc.
(WPMC), and its principal, Guy Wyser-Pratte (Mr.
Pratte), after Longmire’s employment ended in or
around March 2004. Longmire, who worked for WPMC
for about 13 years, claimed that he was wrongfully
terminated and discriminated against because of his
race.
Longmire is biracial. He describes himself as not
appearing to be “from the African race,” with a light
complexion and sharp features, who is “frequently
taken to be someone of Mediterranean or other nonNorthern European heritage.” Second Amended
Complaint (SAC), Ex. 6 to Lee Aff. in Support of Motion
to Dismiss (Lee Aff.), f 20. Throughout his life,
defendant has chosen to self-identify, or “pass,” as
white at 'his places of employment, and, generally, to
keep his biracial background a secret in his
professional life. Id., f 21; Longmire Aff. in Opp. to
Motion to Dismiss (Longmire Aff.), f 5. Longmire, now
in his fifties, received both a BA and an MBA from
Stanford University, and has spent much of his career
working in the Wall Street financial industry. Id., f 4.
According to Longmire, racial discrimination is
common on Wall Street, and, in order to avoid such
discrimination, he has kept his racial background “a
closely guarded secret.” SAC, Iff 24-25; Longmire Aff.,

ft 5,7.
In 1989, Longmire was hired by GWP to work in the
Risk Arbitrage Department at Prudential Bache
Securities, Inc. (Prudential). After Prudential’s Risk
Arbitrage Department was closed in 1990, Mr. Pratte
started WPMC, an independent risk arbitrage company

!

App. 9
solely owned by Mr. Pratte, and invited Longmire to
join him. Longmire started as a Research Analyst, and
later served as Senior Managing Director, Assistant
Portfolio Manger, and Director of Research.
Longmire alleged, in the underlying action, that
during the time that Longmire worked at Prudential,
Mr. Pratte did not know Longmire’s racial background,
and frequently used offensive racial epithets, such as
“check for the niggers in the woodpile,” to refer to
looking for unforeseen investment risks. SAC,
2729. Longmire claimed that, when he started working at
WPMC, in or around 1991, he asked Mr. Pratte to stop
using racial epithets, and to control the racist behavior
of some of the white employees. Id., t 32. At about the
same time, according to Longmire, he also told Mr.
Pratte about his racial background and asked him to
keep it secret. Id., If 33. Longmire alleged that, after he
told Mr. Pratte about his racial secret, Mr. Pratte
“disdained him,” by refusing, in 1997, to give him time
off for a honeymoon, and refusing, in 2002, to give him
time off to receive treatment for broken shoulder. Id.,
tiff 54-55, 57-61. He also alleged that Mr. Pratte and
other employees continued to make racially offensive
remarks, and subjected him to a race-based hostile
work environment. Id., f^f 45-49.
Longmire further claimed that Mr. Pratte used his
knowledge of Longmire’s “secret” racial background to
underpay him, and, in late 2003 and early 2004, to
“extort him to commit perjury” in Mr. Pratte’s divorce
proceeding against his wife, Vivien Wyser-Pratte (Mrs.
Pratte). Id., IHf 81-85, 88-90. Longmire alleged that, in
early January 2004, he had a conversation with Mr.

App. 10
Pratte, during which Mr. Pratte asked Longmire to
testify against Mrs. Pratte, who had threatened to
expose Mr. Pratte in connection with an insider trading
investigation, and to “lie” in his testimony. Id.,
OSOS. Longmire alleged that, over the next few weeks, Mr.
Pratte continued to demand that Longmire testify, and
threatened to “out” him if he did not. Id.,
96, 102.
Longmire did not testify in Mr. Pratte’s divorce
proceeding on behalf of Mr. Pratte, and instead
submitted an affidavit on behalf of Mrs. Pratte, in June
2004, in which he attested that he often spoke with her
on the telephone, and that she, among other things,
tackled interpersonal issues between Mr. Pratte and
him. See Longmire Aff., dated June 4, 2004, Ex. B to
Lee Reply Aff., ^ 4.
Following his conversation with Mr. Pratte in
January 2004, and allegedly as a result of Mr. Pratte’s
threats and hostile, two-month “campaign to get [him]
to commit a crime,” Longmire decided that he had to
leave the workplace, and, purportedly with the
knowledge and agreement of WPMCV chief legal
officer, he left the office of WPMC on January 22, 2004,
and did not return. Id.,
105-106. Longmire was paid
through January 31, 2004. When he received no
compensation in February 2004, he contacted an
attorney, provided by WPMC, who contacted an
attorney for WPMC, and Longmire was apparently
reinstated. He received his salary for March 2004, and
then was terminated as of March 31, 2004. Longmire
contended that, under similar circumstances, a white
man was treated differently, and was given a paid
leave of absence and then returned to work. Id., 117.
Longmire also contended that a white man replaced

App. 11
him as Director of Research. Id.,
118. Mr. Pratte
contended that Longmire quit, when he walked out on
January 22, 2004 and did not contact him. Deposition
of Mr. Pratte (Mr. Pratte Dep.), Ex. 19 to Schwartz Aff.
in Opp. to Motion to Dismiss (Schwartz Aff.), at 143,
223-225, 232. Mr. Pratte testified that Longmire was
reinstated in March 2004 to negotiate a settlement,
and when no settlement was reached after a month, he
was terminated. Id., at 208-209, 226, 233-234.
In June 2004, Longmire retained Warshaw to
represent him in legal proceedings against WPMC and
Mr. Pratte. In November 2004, a complaint charging
employment discrimination was filed with the United
States Equal Opportunity Employment Commission
(EEOC). The EEOC complaint was dismissed in March
2005 for lack of jurisdiction, because Wyser-Pratte did
not employ 15 employees, as required to bring a claim
under Title VII of the Civil Rights Act of 1964 (42 USC
§ 2000e), and Longmire was issued a “right to sue”
letter. See EEOC letter, Ex. 11 to Longmire Aff. In July
2005, Warshaw filed a complaint on Longmire’s behalf
in the United States District Court for the Southern
District of New York (federal complaint).
The federal complaint asserted causes of action for
employment discrimination and retaliation, under the
New York State Human Rights Law (Executive Law
§ 296), the New York City Human Rights Law
(Administrative Code of the City of New York, § 8-107),
and 42 USC § 1981, and, as against Mr. Pratte
individually, for tortious interference with contract.
The discrimination claims were based on allegations
that Mr. Pratte threatened to, and eventually did, “out”

App. 12
his racial secret when he did not agree to perjure
himself in Mr. Pratte’s divorce proceeding; that Mr.
Pratte, by using and allowing other employees to use
racial epithets, created a hostile work environment;
that Longmire was paid less than white employees in
positions similar to his; and that he was fired for
refusing to agree to perjure himself in Mr. Pratte’s
divorce proceeding, was treated differently than a
white man under comparable circumstances, and was
replaced by a white man.
After extensive discovery and motion practice, Mr.
Pratte and WPMC moved for summary judgment
dismissing the case, and the motion was granted, by
Opinion & Order dated September 6, 2007 (Stein, J.).
Ex. 11 to Lee Aff. In his 34-page decision, Judge Stein
held that the evidence was insufficient to sustain the
claims of racial outing, hostile work environment,
disparate pay, and retaliatory termination, or the
tortious interference claim. The court found, among
other things, that Longmire had no claim based on the
alleged threats to reveal his racial background because
his racial background was not a secret, and even if it
had been, the threat to reveal it was not actionable. Id.,
at 17. In addressing the alleged retaliatory
termination, the court also found that, assuming that
Mr. Pratte demanded false testimony from Longmire,
“the basis for that demand was not Longmire’s race,
but rather his relationship with Mrs. Wyser-Pratte.”
Id., at 30.
Warshaw filed an appeal of Judge Stein’s decision
on behalf of Longmire, although, due to a subsequent
mediation process, it was not perfected, and Longmire’s

App. 13
time to appeal was extended. Warshaw represented
Longmire in settlement negotiations, conducted with
the assistance of a court-assigned mediator, through
October 2008. Lee Aff., 1f 24. WPMC and Mr. Pratte
made a settlement offer to Longmire, to pay him
$449,000, over two years, and provide a letter of
reference and assistance with finding employment. Id.,
H 25. Warshaw recommended that Longmire accept the
offer, but he did not, and mediation ended without any
settlement agreement. Warshaw moved to withdraw as
counsel for Longmire, and by order of the Court of
Appeals, Second Circuit, dated October 31, 2008,
Warsaw was relieved as counsel, and Longmire’s
appeal was reinstated and stayed for thirty days, to
allow him to determine whether to retain new counsel
or to continue without counsel. See Order, Ex. 15 to Lee
Aff. Longmire then retained a new attorney, Daniel
Abrams, and, in December 2008, Longmire agreed to
settle his case for $449,00, the amount previously
offered, but paid out over three years, and without any
job search assistance. Lee Aff., 1f 31. This action for
attorneys’ fees, and the countersuit for legal
malpractice, followed.
DISCUSSION
It is well settled that, on a motion to dismiss
pursuant to CPLR 3211(a)(7), the pleadings are to be
liberally construed. See CPLR 3026; Leon v Martinez,
84 NY2d 83, 87 (1994). The court must “accept the facts
as alleged in the complaint as true, accord plaintiffs the
benefit of every possible favorable inference, and
determine only whether the facts as alleged fit within
any cognizable legal theory.” Id., at 87-88; see 511 W.

App. 14
232nd Owners Corp. v Jennifer Realty Co., 98 NY2d.l44,
152 (2002). The court is not required, however, to
accept as true “legal conclusions that are
unsupportable based upon the undisputed facts”
(.Robinson u Robinson, 303 AD2d 234, 235 [1st Dept
2003]), or ‘“factual claims either inherently incredible
or flatly contradicted by documentary evidence.”’
Biondi u Beekman Hill House Apt. Corp., 257 AD2d 76,
81 (1st Dept 1999) (citation omitted), affd 94 NY2d 659
(2000); see Bishop v Maurer, 33AD3d 497, 498 (1st Dept
2006), affd 9 NYJd 910 (2007).
When extrinsic evidence is considered on a
3211(a)(7) motion, the criterion becomes whether the
proponent of the pleading has a cause of action, not
whether the proponent has stated one. Guggenheimer
v Ginzburg, 43 NY2d.268, 275 (1977); see Leon, 84
NY2d at 88; JFK Holding Co., LLC v City of New York,
68 AD3d 477, 477 (1st Dept 2009). “If the documentary
proof disproves an essential allegation of the complaint,
dismissal pursuant to CPLR 3211(a)(7) is warranted
even if the allegations, standing alone, could
withstand a motion to dismiss for failure to state a
cause of action.” Zurich Depository Corp. v Iron Mtn.
Info. Mgt., Inc., 61 AD3d 750, 751 (1st Dept 2009)
(internal quotation marks and citation omitted). Under
CPLR §3211(a)(l), dismissal is
warranted if
“documentary evidence submitted conclusively
establishes a defense to the asserted claims as a matter
of law.” Leon, 84 NY2d at 88; see Beal Sav. Bank v
Sommer, 8 NY3d 318, 324 (2007); Goldman u
Metropolitan Life Ins. Co., 5 NY3d 561, 571 (2005);
Held v Kaufman, 91 NY2d 425, 430-431 (1998).

App. 15
“[PJrior statements or averments of parties or their
agents in the course of litigation that refute an
essential element of a plaintiffs present claim may
constitute documentary evidence within the meaning
of CPLR 3211(a)(1).” Morgenthow & Latham v Bank of
N.Y. Co., Inc., 305 AD2d 74, 80 (1st Dept 2003); see
Biondi, 257 AD2d at 80-81 (documentary evidence
included affirmations, exhibits, letter to court,
complaint in prior federal action); cf. Weil, Gotshal &
Manges, LLP v Fashion Boutique of Short Hills, Inc.,
10 AD3d 257, 271 (1st Dept 2004) (deposition and trial
testimony and summary of prospective witness
testimony did not conclusively establish defense).
Further, “[a]n affidavit is an appropriate vehicle for
authenticating and submitting relevant documentary
evidence, and may provide ‘connecting link[s]’ between
the documentary evidence and the challenged
statements.” Muhlhahn u Goldman
AD3d _, 939
NYS2d 420, 420 (1st Dept 2012) (internal citations
omitted); see Standard Chartered Bank v D. Chabbot,
Inc., 178 AD2d 112 (1st Dept 1991); see also Fenster v
Smith, 39 AD3d 231 (1st Dept 2007) (defendant’s
affidavit properly considered to negate factual
allegations of complaint).
Whether a pleading is sufficient to state a cause of
action for legal malpractice “pose[s] a question of law
which [can] be determined on a motion to dismiss.”
Rosner v Paley, 65 NY2d 736, 738 (1985); see
Prudential Ins. Co. ofAm. v Dewey, Ballantine,Bushby,
Palmer & Wood, 170 AD2d 108, 115 (1st Dept 1991),
affd 80 NY2d 377 (1992); Bernstein v Oppenheim &
Co., P.C., 160 AD2d 428, 430 (1st Dept 1990). A claim
for legal malpractice requires a plaintiff to demonstrate

App. 16
both “that the attorney ‘failed to exercise the ordinary
reasonable skill and knowledge commonly possessed by
a member of the legal profession’ and that the
attorney’s breach of this duty proximately caused
plaintiff to sustain actual and ascertainable damages.”
Rudolf v Shayne, Dachs, Stanisci, Corker & Sauer, 8
NY3d 438, 442 (2007), quoting McCoy v Feinman, 99
NY2d 295, 301-302 (2002); see Leder v Spiegel, 9 NY3d
836, 837 (2007), cert denied 552 US 1257 (2008);
AmBase Corp. v Davis Polk & Wardwell, 8 NY3d 428,
434 (2007). “To establish causation, a plaintiff must
show that he or she would have prevailed in the
underlying action or would not have incurred any
damages, but for the lawyer’s negligence.” Rudolf, 8
NY3d at 442 (citations omitted); see AmBase Corp., 8
NY3d at 434; Brooks v Lewin, 21 AD3d 731, 734 (1st
Dept 2005).
Thus, “[a] plaintiffs burden of proof in a legal
malpractice action is a heavy one. The plaintiff must
prove first the hypothetical outcome of the underlying
litigation and, then, the attorney’s liability for
malpractice in connection with that litigation.”
Lindenman v Kreitzer, 7 AD 3d 30, 34 (1st Dept 2004). In
other words, a “plaintiff is required to prove a ‘case
within a case’” (Reibman v Senie, 302 AD2d 290, 290
[1st Dept 2003] internal quotation marks and citation
omitted]), which “is a distinctive feature of legal
malpractice actions . . . [and] adds an additional layer
to the element of proximate cause.” Lindenman, 7
AD3d at 34 (internal quotation marks and citations,
omitted); see Sabalza v Salgado, 85 AD3d 436, 437 (1st
Dept 2011); McKenna v Forsyth & Forsyth, 280 AD2d
79, 82 (4th Dept 2001). “The failure to demonstrate

i

App. 17
proximate cause mandates the dismissal of a legal
malpractice action regardless of whether the attorney
was negligent.” Leder, 31 AD3d at 268; see Pellegrino v
File, 291 AD2d 60, 63 (1st Dept 2002).
“Nor may speculative damages or conclusory claims
of damage be a basis for legal malpractice.” Russo v.
Feder, Kaszovitz, Isaacson, Weber, Skala & Bass, 301
AD2d 63, 67 (1st Dept 2002); see Leder, 31 AD3d at 268;
Brooks, 21 AD3d at 734; Pellegrino, 291 AD2d at 63.
While, for purposes of a CPLR 3211(a)(7) motion to
dismiss, “a pleading need only state allegations from
which damages attributable to the defendant’s conduct
may reasonably be inferred” (Lappin u Greenberg, 34
AD3d 277, 279 [1st Dept 2006]), “speculation on future
events . . . [is] insufficient to establish that the
defendant lawyer’s malpractice, if any, was a proximate
cause of any such loss.” Brooks, 21 AD3d at 734-735;
see Philips-Smith Specialty Retail Group II, L.P. v
Parker Chapin Flattau & Klimpl, L.L.P., 265 AD2d
208, 210 (1st Dept 1999). Further, “[t]he lawyer’s
conduct must have caused damages that are actual and
ascertainable.” Icahn u Todtman, Nachamie, Spizz &
Johns, P.C., 2001 WL 11605821 *8, 2001 US Dist
LEXIS 15487, *22-23 (SDNY 2001); see Zarin u Reid &
Priest, 184 AD2d 385, 387-388 (1st Dept 1992).
Moreover, where “subsequent counsel had a sufficient
opportunity to protect the plaintiffs’ rights by pursuing
any remedies it deemed appropriate on their behalf’
(Katz v Herzfeld & Rubin, P.C., 48 AD3d 640, 641 [2d
Dept 2008] [citations omitted]), any negligence of prior
counsel cannot be the proximate cause of a plaintiffs
alleged damages. See Somma v Dansker & Aspromonte
Assocs., 44 AD3d 376 (1st Dept 2007); Golden v

App. 18
Cascione, Chechanover & Purcigliotti, 286 AD.2d 281
(1st Dept 2001).
In this case, Longmire’s malpractice claim is based
chiefly on allegations that Warshaw, in opposing
defendants’ summary judgment motion in the
underlying action, failed to address the “primary claim
in the case, which was that Longmire ultimately lost
his job because of his race.” Answer & Counterclaim,
Ex. 20 to Lee Aff, U 21 The counterclaim asserts that
Warshaw “deviated from the applicable standard of
care by treating the motion for summary judgment as
a motion for partial summary judgment, and failing to
identify for the District Court the existence of material
facts requiring a trial.” Id.,
27. Other alleged
deviations include “a failure to rebut Wyser-Pratte’s
unsupported assertion that Mr. Longmire was asked to
testify in Mr. Wyser-Pratte’s divorce ‘because of
Longmire’s relationship with Mrs. Wyser-Pratte,” and
“a failure to allege a wrongful refusal to hire claim.” Id.
Longmire claims that had Warshaw acted “in
accordance with the applicable standard of care, Mr.
Longmire would have survived summary judgment and
ultimately prevailed at trial against Wyser-Pratte and
recovered an amount to be determined at trial.” Jd,
H 28.
With respect to Longmire’s allegation that filing a
complaint with the EEOC was “completely
unnecessary” {id., ^ 5) and a “waste of my time and
money” (Longmire Aff. , at 14), he does not now argue
that filing the EEOC complaint was malpractice, and
alleges no damages as a result of filing the EEOC
complaint. To the contrary, Longmire claimed that he

App. 19
“gained several things” to use against Mr. Pratte as a
result of the EEOC proceeding. See Letter dated
March 8, 2005, Ex. 36 to Lee Aff. He also stated that he
went to the EEOC because he wanted to keep the
complaint confidential. See Longmire Aff., dated
August 2005, Ex. 91 to Lee Aff., f 2.
Longmire also does not allege that Warshaw was
negligent in litigating any of the other claims in the
underlying action, including racial outing, hostile work
environment, disparate pay, retaliatory discharge, and
tortious interference with contract, all of which were
dismissed. Rather, Longmire focuses on his claim that
he was terminated because of his race, which was not
expressly addressed by WPMC and Mr. Pratt in their
motion, or by the court, and asserts that Warshaw
should have brought it to the attention of the court and
argued that, in the context of the standards set out in
McDonnell Douglas Corp. v Green (411 US 792, 802804 [1973]), the evidence supported a prima facie case
of discriminatory termination.
In support of its motion to dismiss, Warshaw
contends that litigation of Longmire’s claims in the
underlying action was largely directed by Longmire
and that the papers submitted in opposition to the
summary judgment motion were closely reviewed, and
revised, by Longmire, and submitted with his
knowledge and approval, and that discriminatory
termination was not his primary claim. Warshaw also
contends that Longmire cannot show that he would
have succeeded on a claim of discriminatory
termination.

App. 20
As numerous e-mails and other documents
submitted on the instant motion make clear, Longmire
worked closely with his counsel and played a
significant role in decisions regarding the litigation of
his claims against Mr. Pratte and WPMC, conducting
his own research, framing the issues, suggesting
claims, identifying relevant facts, and drafting,
reviewing, and revising documents, including the
pleadings and motion papers. See e.g. Exs. 27-30, 33,
37, 42, 45 to Lee Aff. However, notwithstanding
Longmire’s extensive involvement in the litigation of
his case, he is not an attorney or someone with a
sophisticated knowledge of the legal issues involved,
and Warshaw ‘“may not shift to the client the legal
responsibility it was specifically hired to undertake
because of its superior knowledge.’” Escape Airports
(USA), Inc. v Kent, Beatty & Gordon, LLP, 79 AD 3d
437, 439 (1st Dept 2010), quoting Hart u Carro,
Spanbock, Kaster & Cuiffo, 211 AD2d 617, 619 (2d
Dept 1995); see Cicorelli u Capobianco, 90 AD2d 524
(2d Dept 1982), affd 59 NY2d 626 (1983).
It is, however; also clear from the documents
submitted that Longmire’s thinking about his case
evolved over time. When he first retained Warshaw,
Longmire, by his own acknowledgment, did not want to
“out” himself to sue his employer, and wanted to find
non race-based claims against WPMC and Mr. Pratte.
Longmire Aff., Tf 36. In correspondence with Warshaw,
he described his case as a “simple one” - that he was
fired for refusing to commit perjury. See E-mail dated
July 1, 2004, Ex. 31 to Lee Aff.; Letter dated July 4,
2004, Ex. 32 to Lee Aff. After his attorney “shot down”
his suggestions for non race-based claims, he decided to

App. 21
bring a race discrimination claim against WPMC and
Mr. Pratte. Longmire Aff., If 37. He claimed, generally,
that he was “racially profiled” and “blackmailed” to
commit a crime, and that Mr. Pratte’s threats to “out”
him amounted to racial discrimination. See Ex. 35 to
Lee Aff.
As developed by Longmire and his attorneys, the
discrimination claims in the federal complaint included
hostile work environment, based on allegations that
Mr. Pratte and other employees frequently used racial
epithets; disparate pay, based on allegations that he
was paid less than other similarly situated white
employees; racial outing, based on Mr. Pratte’s alleged
threats to reveal Longmire’s racial background; and
retaliation and unlawful termination, based on
allegations that Mr. Pratte’s demand that he falsely
testify in Mr. Pratte’s divorce proceeding was racially
motivated, and that he was fired for refusing to testify.
Longmire’s claim of discriminatory termination,
although distinct from his retaliation claim, is based on
most of the same allegations, that is, that he was
racially profiled to commit an “illegal job
assignment,’’and that he was fired for refusing to do it.
The essence of the claim is that Mr. Pratte used his
knowledge of Longmire’s biracial background, and his
desire to keep it a secret from his co-workers and
colleagues, to attempt to coerce him to testify; and that
this race-based demand, and Longmire’s refusal to
comply with it, demonstrated that racial animus
motivated his termination. He also alleges that there
was no reason that Mr. Pratte singled him out to
testify, from seven other employees, six of whom were

App. 22
white and one Asian, other than his race. In addition,
he alleges that he was replaced by a white man, and
that he was treated differently than another white man
who resigned, in November 2002, purportedly because
he disagreed with an action the company was taking.
Even viewing the counterclaim in the light most
favorable to Longmire, the allegations are insufficient
to support a claim that Warshaw’s negligence was a
proximate cause of his failure to obtain a more
favorable result in the underlying action. See Held u
Seidenberg, 81 AD3d 616 (2d Dept 2011); O’Callaghan
v Brunelle, 84 AD3d 581 (1st Dept 2011); Tortura v
Sullivan Papain Block McGrath & Cannavo, P.C., 21
AD3d 1082 (2nd Dept 2005). A review of the record
shows that Longmire cannot establish that the result
in the underlying action ultimately would have been
different “even if the omitted evidence and arguments
had been presented on the original motion.” Hutt v
Kanterman & Taub, P.C., 280 AD2d 379, 380 (1st Dept
2001); see Russo v Feder, Kaszovitz, Isaacson, Weber,
Skala & Bass, LLP, 301 AD3d 63, supra; Palazzolo v
Herrick, Feinstein, LLP, 298 AD2d 372 (2d Dept 2002);
Dweck Law Firm, LLP v Mann, 283 AD2d 292 (1st Dept
2002).
Under the familiar McDonnell-Douglas “burdenshifting” framework applicable to employment
discrimination cases brought under federal, state, and
local laws, a plaintiff has the initial burden of
establishing a prima facie claim of unlawful
termination by showing that “(1) he is a member of a
protected class, (2) he was qualified for the position,
(3) he was terminated from employment or suffered an

App. 23
adverse employment action, and (4) the termination or
other adverse action occurred under circumstances
giving rise to an inference of discrimination.” Dickerson
v Health Mgmt. Corp. of Am., 21 AD3d 326, 328 (1st
Dept 2005), citing Forrest v Jewish Guild for the Blind,
3 NY3d 295, 305 (2004); see McDonnell Douglas Corp.,
411 US at 802-804; Stephenson v Hotel Employees &
Rest. Employees, Union Local 100 ofAFL-CIO, 6 NY3d
265, 270 (2006); Ferrante v American Lung Assn., 90
NY2d 623, 629 (1997). This initial burden has been
characterized as “de minimis.” See Wiesen v New York
Unix)., 304 AD2d 459, 460 (1st Dept 4003); Schwalex v
Squire Sanders & Dempsey, 249 AD2d 195, 196 (1st
Dept 1998); Beyer v County of Nassau, 524 F3d 160,
163 (2d Cir 2008). “It is not, however, nonexistent. If
the plaintiff fails to establish any element of his prima
facie case, summary judgment is appropriate.” Crews
v Trustees of Columbia Univ., 452 F Supp 2d 504, 522
(SD NY 2006), affd 308 Fed Appx 518 (2d Cir 2009); see
Klings v New York State Ofc. of Court Admin., 2010 WL
1292256, *5, 2010 US Dist LEXIS 33434, *16 (ED NY
2010).
, If the plaintiff establishes a prima facie case, the
burden then shifts to the employer to articulate a
legitimate, nondiscriminatory reason for its
employment decision. See Stephenson, 6 NY3d at 270271; St. Mary’s Honor Ctr. v Hicks, 509 US 502, 506507 (1993); Dickerson, 21 AD3d at 328. If the employer
articulates a legitimate, nondiscriminatory basis for its
action, the burden shifts back to the plaintiff to prove
that the employer’s reasons are a pretext for
discrimination, by showing '“both that the reason was
false, and that discrimination was the real reason.’”

App. 24

'

Ferrante, 90 NY2d at 630 (internal citation omitted)
(emphasis in original). For plaintiff to prevail, “‘[i]t is
not enough ... to disbelieve the employer; the
factfinder must believe the plaintiffs explanation of
intentional discrimination.’” Id. (emphasis in original)
“[E]ven if the employer’s reason is ‘unpersuasive, or
even obviously contrived,’ plaintiff always has the
ultimate burden of proof to show that intentional
discrimination has occurred under a consideration of
all the evidence.” Id. (internal citations omitted); see
Texas Dept, of Community Affairs v Burdine, 450 US
248, 253 (1981); Bailey v New York Westchester Sq.
Med. Ctr., 38 AD3d 119, 123 (1st Dept 2007).
In the underlying action, it was not disputed that
Longmire, as a biracial person, was a member of a
protected class, and was qualified for the position that
he held at WPMC. As to his termination, the parties
disputed whether Longmire quit or was fired. However,
assuming that Longmire was terminated, whether as
of January 31, 2004 or March 31, 2004, the
circumstances surrounding his termination, as found
by the federal court and reflected in the record, did not
give rise to an inference of discrimination. Judge Stein
expressly found that race was not the basis for Mr.
Pratte’s demand that Longmire falsely testify, and that
Longmire’s relationship with Mr. Pratte’s wife was the
basis for the demand. See Opinion &: Order, Ex. 11 to
Lee Aff., at 30. Although Longmire disputes this
finding, evidence supports Judge Stein’s conclusion,
and Longmire offers no evidence that shows otherwise.
Longmire acknowledged that he knew and “spoke often
over the telephone” with Mrs. Pratte. See Longmire
Aff., dated June 4, 2004 (June 2004 Aff.), Ex. B to Lee

App. 25
Reply Aff., | 4. In the June 2004 Aff., submitted to the
court in the Wyser-Pratte divorce proceeding, Longmire
attested that Mr. Pratte frequently discussed his
personal life, including Mrs. Pratte, with him, and he
detailed numerous conversations he had with Mr.
Pratte, some time before the divorce proceeding
commenced, about issues involving Mrs. Pratte. Id.
TfH 5,14-19, 21-22. He also attested that, in May 2003,
after he had a conversation with Mrs. Pratte, in which
she discussed Mr. Pratte and the pressures he was
under, Mr. Pratte asked him questions about the
conversation, (id., Iff 9-12), and asked him to
remember it, “because it could prove useful to him” (id.,
1f 16), and to discuss the details of it with Mr. Pratte’s
lawyer. Id., U 24. Although Longmire claims that he
was singled out because of his race, and no white
employee was asked to testify, he neither alleges nor
offers any evidence to show that any other employee
had similar conversations, or a similarly familiar
relationship, with Mrs. Pratte, or with Mr. Pratte.
Likewise, he submits no evidence to demonstrate that
he was similarly situated to employee Michael Kelly,
the white man Longmire claims was given a one month
paid leave of absence, and then rehired, after he
allegedly resigned to protest a company action. The
reasons for Kelly’s resignation are disputed, as are the
circumstances which followed, and, in any event,
Longmire asserts that he did not resign, and he was
paid for a month when he was not working. As
Longmire has not shown “a reasonably close
resemblance of the facts and circumstances” of his and
Kelly’s situations, he cannot establish disparate
treatment. See Octobre v Radio Shack Corp., 2010 WL
850189, *10, 2010 US Dist LEXIS 22997, *30-31 (SD

App. 26
NY 2010); Shah v Wilco Sys., Inc., 27 AD3d 169, 177
(1st Dept 2005). Longmire’s claim that he was targeted
because of his race is, therefore, not supported by the
evidence, and does not raise triable issues of fact as to
whether his alleged termination, was race-based.
Even if his replacement by a white man could be
sufficient to make a prima facie
showing of
discrimination, Mr. Pratte articulated a
nondiscriminatory reason for his termination, which
was that he believed that Longmire quit or abandoned
his position when he left on January 22, 2004. Mr.
Pratte testified that Longmire was briefly reinstated in
order to negotiate a settlement package, and that,
when no settlement was reached, Longmire was
terminated. Longmire does not deny that he left the
office on January 22, and did not return to work at any
time after that. Although he claims that this was
suggested and approved by WPMC’s chief legal officer,
and that he intended to work from home, there is
evidence that his then attorney was seeking a
severance package for him, not a return to work. See
Mr. Pratte Dep., at 226. Longmire’s unsupported
claims are insufficient to show both that the stated
reason for his termination was false and the real
reason was discrimination.
While there may be questions remaining about
Longmire’s. employment status from January 22
through March 31, 2004, and about WPMC’s business
decisions to pay or not pay him during that time and
after he was terminated, a “[pjlaintiff does not raise a
jury issue merely by showing that the employer’s
decision was arbitrary or unsupported by the facts.”

App. 27
Ioele v Alden Press, Inc., 145 AD2d 29, 36 (1st Dept
1989). It also is not enough “to show that the employer
made an unwise business decision, or an unnecessary
personnel move . . . [or] that the employer acted . . .
with ill will.” Id. (internal quotations and citation
omitted); see Alvarado v Hotel Salisbury, Inc., 38 AD3d
398, 398 (1st Dept 2007). A plaintiff must instead
produce evidence that defendant did not in good faith
believe the allegations against plaintiff and that the
real motive for the termination was discriminatory
animus toward plaintiff. See Octobre, 2010 WL 850189
at *9, 2010 US Dist LEXIS 22997 at *29; Dorcely v
Wyandanch Union Free Sch. Dist., 665 F Supp 2d 178,
201 (ED NY 2009); Hardy v General Elec. Co., 270
AD2d 100, 703 (3d Dept 2000). Longmire has not
produced sufficient evidence to show that the real
motive for his termination was discriminatory animus.
See Jordan v American Inti. Group, Inc., 283 AD2d
611, 612 (2nd Dept 2001); Hirschfeld v Institutional
Investor, Inc., 260 AD2d 171, 171-172 (1st Dept 1999).
As evidence does not show that a different strategy
would have resulted in a different outcome and that he
would have prevailed in the underlying action, any
negligence of Warshaw would not be the proximate
cause of any damages. Further, his assertions that he
would have received more at trial than he obtained by
settling the case are merely speculation. See Rodriguez
■ v Lipsig, Shapey, Manus, & Moverman, P. C., 81 AD3d
551, 552 (1st Dept 2011); Somma, 44 AD3d at 377;
Brooks, 21 AD3d at 734-735; Feldman v Jasne, 294
AD2d 307, 307 (1st Dept 2002). Longmire does not
allege how a higher settlement could have been
achieved, what that higher settlement would have

App. 28
been, or how Warshaw’s negligence forced him to
accept the settlement amount. Thus, Longmire fails to
plead proximate cause.
As to whether Warshaw should have moved for
reconsideration of Judge Stein’s decision instead of
appealing it, Warshaw made a strategic decision, in
view of the judge’s findings, and the “selection of one
among several reasonable courses of action does not
constitute malpractice,” even if the attorney committed
an error of judgment. Rosner, 65 NY2d at 738; see
Dimond v Salvan, 78 AD3d 407, 408 (1st Dept 2010);
Mars v Dobrish, 66 AD3d 403, 403 (1st Dept 2009);
Hand v Silbermans, 15 AD3d 167, 167 (1st Dept 2005).
Moreover, Longmire retained his right to appeal, and
his rights were protected by succeeding counsel. See
Katz v Herzfeld & Rubin, P.C., 48 AD 3d 640, supra;
Somma u Dansker & Aspromonte Assocs., 44 AD3d 376,
supra.
Finally, Longmire’s reliance on the affidavit of
another attorney to provide an expert opinion on the
standard of care for litigating employment
discrimination claims, is unavailing. “Essentially, the
affiant-attorney was offering a legal opinion as to what
performance or absence thereof constitutes legal
malpractice. But making those determinations is the
function of a court.” Russo, 301 AD2d at 68; see
Laddcap Value Partners, LP v Lowenstein Sandler PC,
2009 WL 727781,2009 NYMisc LEXIS 3689, *26,2009
NY Slip Op 30540(U) (Sup Ct, NY County 2009).
“An expert may not be utilized to offer opinion as to
the legal standards which he believes should have
governed a party’s conduct.” Russo, 301 AD2d at 69; see

App. 29
Colon v Rent-A-Center, Inc., 276 AD2d 58, 61 (1st Dept
2000). Thus, courts “do not rely on an attorney’s
affidavits to tell . . . [them] what constitutes
malpractice. Russo, 301 AD2d at 69; see Gersten v
Lemke, 2010 WL 5044074, 2010 NY Misc LEXIS 5851,
*11, 2010 NY Slip Op 33317(U), **5 (Sup Ct, NY
County 2010).
Accordingly, it is
ORDERED that the motion of plaintiff Warshaw
Burstein Cohen Schlesinger & Kuh, LLP is granted
and the first counterclaim is dismissed, and it is
further
ORDERED that the remaining claims are severed
and shall continue; and it is further
ORDERED that the parties proceed to mediation,
forthwith.
Dated: April 16, 2012
ENTER:
/s/ Joan M. Kenney
HON. JOAN M. KENNEY, J.S.C.

